OIG Investigative Reports Press Release, New York, NY 12/19/2012 - DA VANCE: Former Baruch College Academic Director Pleads Guilty to Falsifying Students' Grades
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The New York County
District Attorney's Office
Press Releases
Cyrus R. Vance, Jr.
District Attorney, New York County
For Immediate Release
December 19, 2012
DA VANCE: Former Baruch College Academic Director Pleads Guilty to Falsifying Students' Grades
Manhattan District Attorney Cyrus R. Vance, Jr., today announced the guilty plea of CHRIST KOUTSOUTIS, 56, for fraudulently inflating students' grades to meet the requirements for completion of a master's degree at the Zicklin School of Business at Baruch College. The defendant pleaded guilty to a Superior Court Information charging eleven counts of Forgery in the Second Degree and ten counts of Falsifying Business Records in the Second Degree. The defendant is expected to be sentenced on February 6, 2013.
"Dishonesty has no place in a college education," said District Attorney Vance. "This defendant was entrusted with guiding students, but instead abused his position by falsifying records to show grades that did not reflect students' performance. I would like to thank the administration at Baruch College for its assistance with the investigation into this defendant, who threatened the academic integrity of their institution."
According to the defendant's guilty plea and documents and statements filed on the record in court, from November 6, 2010 through June 2, 2011, KOUTSOUTIS fraudulently changed students' grades while employed as the Director of Executive Programs for advanced degree programs at the Zicklin School of Business at Baruch College. In order to raise the grade point averages of eight students who would have otherwise failed to meet the school's requirements to graduate, KOUTSOUTIS created and filed fraudulent grade change forms, and, in the process, forged signatures of certain faculty members and administrators.
In some cases, KOUTSOUTIS arranged for students to sit in on unapproved classes as substitutes for a failed course to justify the unauthorized change in a student's grades. In multiple cases, KOUTSOUTIS falsely claimed that a student had submitted "missing work" after their final grade had been issued in order to warrant raising their final grades, though those claims were false.
Assistant District Attorney Leah Keith prosecuted this case under the supervision of Deputy Chiefs Judith Salwen and Archana Rao, and Chief Thomas Wornom, of the Special Prosecutions Bureau.
District Attorney Vance thanked the following individuals and agencies: Investigator Gerald Bergold, of the District Attorney's Investigations Bureau; Special Agent Anthony Mangarella, of the United States Department of Education; Frederick P. Schaffer, General Counsel and Senior Vice Chancellor for Legal Affairs, and Kristen Bowes, Associate General Counsel, of the City University of New York (CUNY); and Stephanie Vullo, Executive Legal Counsel and Labor Designee, and Shamik L. Mitchell, Deputy Labor Designee and Deputy Ethics Officer, of Baruch College.
Defendant Information:
CHRIST KOUTSOUTIS, D.O.B. 10/17/1956
Convicted:
Forgery in the Second Degree, a class D felony, 11 counts
Falsifying Business Records in the Second Degree, a class A misdemeanor, 10 counts
Top
Printable view
Last Modified: 12/31/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov